      Evaluation of Early
    Nurse Visitation Program

Boston Regional Office of Workers’
     Compensation Programs




     U.S. Department of Labor
     Office of Inspector General
Office of Evaluations and Inspections




                                    Report No. 10-OEI-97-OWCP
                                              Date: JUN 11 1997
                                                 TABLE OF CONTENTS
                                                                                                                                      Page

I.     Executive Summary .............................................................................................................2

II.    Introduction..........................................................................................................................4

III.   Background ..........................................................................................................................4

IV.    Methodology ........................................................................................................................6

V.     Evaluation Results ...............................................................................................................9

       A.         Implementation of the ENVP...................................................................................9

       B.         Stakeholders’ Assessments of the ENVP ..............................................................13

       C.         Potential Program Improvements ..........................................................................15

                  1.         Second Medical Opinion Timeframes .......................................................16

                  2.         Medical Management by Nurses ...............................................................18

                  3.         Targeting of Nurse Resources....................................................................21

VI.    Conclusions........................................................................................................................23

VII.   Recommendations..............................................................................................................24

       Appendix
I.   EXECUTIVE SUMMARY

     At the request of the Office of Workers’ Compensation Programs (OWCP), the Office of
     Inspector General performed an evaluation of the Boston Region’s Early Nurse Visitation
     Program (ENVP). The objective of our review was to evaluate the cost effectiveness of
     the ENVP in achieving the pilot’s goals of earlier and more stable returns to work in
     order to assist OWCP management with decisions regarding future directions for early
     nurse intervention initiatives.

     The impact of the ENVP pilot could not be definitively measured as a result of
     judgmental criteria, inconsistent with the pilot’s protocols, adopted by the major
     employing agency to screen the cases of injured workers prior to referral for ENVP
     participation. However, the results of our evaluation support the continuing efforts by
     OWCP to pilot and improve nurse intervention and management early in periods of
     disability following a workplace injury.

     We identified several non-quantifiable indicators of the positive outcomes of the ENVP.
     Most significantly, the Boston Region’s early nurse intervention initiatives enjoy a high
     level of support among all key stakeholder groups, including employing agency
     representatives, union officials, claimants, claims examiners, contract nurses and OWCP
     Regional management. The most enthusiastic support for the Region’s early nurse
     intervention efforts was voiced by the United States Postal Service (USPS) officials
     responsible for adopting the unauthorized selection criteria. Consistent with the selection
     criteria they had implemented, USPS Boston Injury Compensation officials considered
     OWCP’s early intervention most critical in particularly complex or problematic cases,
     while expressing confidence in USPS’ procedures for the management of more routine
     injuries. The absence of statistically significant differences in performance measures,
     such as return to work timeframes and injury recurrence rates, between the most complex
     or problematic cases referred for ENVP participation and a randomly selected group of
     non-ENVP cases may, in fact, be indicative of the benefits of the pilot in addressing
     particularly difficult cases. While the implemented program differed significantly from
     the planned pilot, OWCP and USPS may have achieved an approach which integrates
     effective procedures available at the local level to both agencies for the early
     management of work related disability.

     Our review also identified several opportunities for improving early nurse intervention,
     the overall workers’ compensation program and future pilot projects. Specifically, a
     comparison with USPS’ fitness for duty examination process indicated the potential for
     reducing timeframes for OWCP’s second medical opinions by approximately 28 days for
     claimants with identified work capacity and concurrently increasing the confidence of
     USPS officials in referring more routine cases to OWCP for early intervention. We also
     noted opportunities, consistent with OWCP National Office guidance, for more active
     involvement by the nurses in the management of the claimants’ medical care and
     improved targeting of nurse resources towards case intervention points of greatest
     potential impact. Lastly, we provided recommendations to OWCP to improve the
     potential that future pilot projects which require the cooperation of employing agencies
       are implemented as intended.

       The Employment Standards Administration (ESA)’s response, dated May 9, 1997, to our
       draft report concurred with the general direction and intent of our recommendations,
       although not with the specifics of every recommendation. In particular, significant
       actions are in process with respect to reducing the timeframes for second medical
       opinions and ensuring more active management of medical care by OWCP’s field nurses.
       ESA’s detailed response to each recommendation is included in the text of the report and
       a complete copy of the response can be found in the Appendix.

II.    INTRODUCTION

       At the request of the Office of Workers’ Compensation Programs (OWCP), the
       Office of Evaluations and Inspections (OEI), Office of Inspector General
       (OIG), performed an evaluation of the Boston Region’s Early Nurse Visitation Program
       (ENVP). The objective of our review was to evaluate the operations, performance and
       cost effectiveness of the ENVP in achieving the pilot’s goals of earlier and more stable
       returns to work in order to assist OWCP management with decisions regarding future
       directions for early nurse intervention initiatives.

       We provided an interim report on this evaluation to the Office of Workers’
       Compensation Programs on October 2, 1995, and this report summarizes all evaluation
       work conducted on the ENYP pilot.

III.   BACKGROUND

       The ENVP project was intended to produce more timely and stable returns to work, at a
       lower cost to the Government, by involving nurses earlier following an injury identified
       as involving the potential for long term disability. The premise of the ENVP was that
       effective medical management early in the case would reduce the duration of the
       claimant’s disability. Traditionally, OWCP has not assigned nurses until after claimants
       filed for compensation benefits, generally more than 45 days following a traumatic
       injury. However, under the ENVP project, following a claimant’s disability of 14
       consecutive days, the employing agency agreed to refer all traumatic injury cases to
       OWCP for early nurse intervention. To facilitate the expedited referral of information
       concerning workplace injuries, OWCP arranged for the installation of a dedicated
       electronic mail connection with the ENVP pilot locations.

       To implement the ENVP pilot, the Boston OWCP office contracted directly with nurses
       who had previous case management experience. After acceptance of the case by an
       OWCP claims examiner, the nurse was notified of the assignment by electronic mail.
       Upon receipt of the referral from OWCP, the nurse was expected to immediately assess
       the claimant’s medical situation and contact the injured worker in person to discuss her
       role and the medical treatment plan. The injured worker’s participation in the program
       was on a voluntary basis.
Under the ENVP, the nurse’s role included a wide range of responsibilities with emphasis
upon medical management and liaison between the claimant, employing agency
representatives, physician and OWCP officials. The nurse was expected to contact the
treating physician to discuss the current and future medical treatment plans and continue
to monitor the progress of treatment, accompanying the claimant to medical
appointments, when necessary. The nurse assisted the claimant in completing forms and
securing information from OWCP and the employing agency. As the case progressed, the
nurse might be required to monitor the claimant’s cooperation with the treatment plan,
such as attendance at recommended physical therapy sessions. When work capability was
evidenced, the nurse was instructed to communicate directly with the physician
concerning the claimant’s progress and to obtain concrete work limitations. Once work
potential was confirmed, the nurse’s role was to contact the employing agency and assist
in developing an appropriate light duty position. When the claimant returned to work, the
nurse accompanied his/her to the facility on the first day for a return to work conference
with the claimant, the supervisor and the injury compensation specialist to confirm an
understanding of any physical limitations or modifications.

The ENVP was piloted in five designated United States Postal Service (USPS) offices:
Hartford and Stanford, Connecticut; Boston, Massachusetts; Portland, Maine; and
Manchester, New Hampshire as well as a Department of Veterans Affairs (VA) facility in
Brockton, Massachusetts. In addition, cases from three Department of Defense agencies
were identified by OWCP Regional officials as candidates for early intervention and
referred to the field nurses during the period of the ENVP. The table below summarizes
the number of participants by employing agency during our evaluation period.

     Number of Claimants Serviced by the ENVP Program 9/1/93 - 7/31/95

              USPS                                              90
              Veterans Administration                            2
              Department of the Army                             1
              Department of the Navy                             1
              Department of the Air Force                        1

              Total                                             95

The Regional Director, Office of Workers’ Compensation Programs in Boston conducted
an analysis of the program at the completion of the pilot’s first year and provided the
results to the OWCP National Office in a report dated December 7, 1994. Our evaluation
expanded upon the Region’s review in an effort to extend the quantitative analysis and
incorporate qualitative factors not addressed previously.

Subsequent to the end of the pilot, the Boston OWCP office has experimented with other
approaches to early nurse intervention. The most significant experiment after ENVP was
the Very Early Nurse Visitation Program (VENVP) which accelerated intervention to
three days after disability, piloted nurse management by telephone rather than visitation
and included procedures to increase OWCP’s assistance to USPS in facilitating the
      progress of claimants in a light and/or limited duty status towards resumption of all pre-
      injury duties on a full-time schedule.

IV.   METHODOLOGY

      Our review of OWCP’s ENVP pilot project relied upon a variety of evaluation
      techniques, including literature review, interviews, quantitative analysis and a case study.
      A total of 95 cases were accepted for participation in the ENVP pilot during the review
      period we selected, as shown in the table in the Background section above. In view of the
      significantly larger number of participants from USPS offices, we limited the scope of
      our review to cases from this employing agency.

      In preparation for our evaluation of the ENVP, we reviewed an earlier study of the pilot
      conducted by the Regional Director of OWCP’s Boston office as well as a review of a
      similar project, the State of West Virginia’s Workers’ Compensation Fund’s Very Early
      Intervention Project, and the Management Report on the Claimant Advocate Project
      conducted by the OWCP New York district office. Our literature research was conducted
      to expand our knowledge of workers’ compensation intervention practices, to obtain
      information about the impacts of these projects and to identify issues which might have
      an effect on the ENVP pilot. The West Virginia program provided early nurse
      intervention to underground coal miners who had suffered back injuries and been
      disabled for a week or more. The study concluded that the West Virginia project was not
      cost effective because the intervention had been offered too early in the disability period
      and did not adequately distinguish those who could benefit from the service from those
      likely to return to work in a timely manner without the intervention; the issues raised in
      that report were taken into consideration in our assessment of the ENVP. The Claimant
      Advocate Project (CAP) pilot provided intervention by telephone to claimants disabled
      for at least 45 days as a result of work related back injuries. Due to the significant
      differences between the CAP and the ENVP with respect to intervention timeframes and
      techniques, we did not use results from this study in planning our evaluation.

      Our evaluation entailed interviews with senior management staff in the Boston OWCP
      regional office, claims examiners, contract nurses, injury compensation officials from
      both the USPS and Department of Veterans’ Affairs, officials of the American Postal
      Workers Union and the National Postal Mail Handlers Union and two claimants who had
      participated in the ENVP. In addition to individual interviews with three OWCP claims
      examiners and three nurses, we organized and moderated two focus group discussions
      regarding the ENVP pilot, the first with four nurses and the second with four claims
      examiners.

      Our quantitative analysis utilized a quasi-experimental design to compare the ENVP
      participants to a control group of 440 non-ENVP participants selected from the pilot
      USPS sites and from other USPS locations similar in size to the pilot sites. We further
      reduced the ENVP pilot group to 77 and the control group to 202 by excluding from our
      analysis part-time employees, those who continued to work following an injury,
      employees who returned to work a few days after injury but later stopped working and
     employees whose injuries occurred after February 1995. The injury cut-off date was
     selected to allow sufficient time for observable program activity prior to the August 1,
     1995 end date of our evaluation period. To ensure the comparability of the two groups,
     we reviewed basic data for all cases including: (1) demographic data such as age, sex, job
     title and income; (2) operational data such as lead time from the date of injury to
     assignment of a nurse; (3) outcome data, such as the number of days the claimant
     remained out of work following an injury; and (4) type of injury. We then conducted a
     quantitative analysis of the ENVP and non-ENVP participants in order to assess
     statistically significant differences in performance criteria including the total length of
     disability, the time from nurse assignment to return to work, and the rate of injury
     recurrence. We utilized several methods of quantitative analysis, including T-test and
     regression analysis, to determine statistical inferences in the ENVP and non-ENVP cases.
     When our initial quantitative analyses identified statistically insignificant differences
     between the ENVP and non-ENVP cases, we discussed the results with employing
     agency and OWCP officials and were advised by personnel of the Boston USPS office
     that they had instituted judgmental criteria for screening cases referred for ENVP
     participation which had biased the results of our quantitative analysis.

     After concluding that further quantitative analysis would yield irrelevant results
     regarding the cost effectiveness of the pilot, we proceeded to a case study approach to
     qualitatively assess the program, including the impact of the nurses’ intervention, the
     issues cited by USPS officials for withholding referrals and other opportunities for
     program improvement. We selected nine ENVP cases and seven non-EN VP cases from
     USPS’ Boston General Mail Facility for study, matching the cases on the following
     criteria: age, sex, job classification, income, and type of injury. We used ICD-9 codes, an
     internationally accepted system of classifying medical conditions and diseases, as a basis
     for ensuring the similarity of injuries. In addition to detailed review and analysis of both
     OWCP and USPS case files, we conducted additional interviews with OWCP claims
     examiners and management staff as well as staff and management of the USPS Boston
     office.

     Our evaluation was conducted in accordance with the Quality Standards for Inspections
     (March 1993), published by the President’s Council on Integrity and Efficiency.

V.   EVALUATION RESULTS

     Although our evaluation was not able to conclusively determine whether the Boston
     Early Nurse Visitation Program (ENVP) reduced the costs of the Federal workers’
     compensation program through earlier and more stable returns to the workplace, our
     review highlighted implementation issues warranting consideration for future OWCP
     pilot projects, confirmed the support of key stakeholders for early intervention by OWCP
     contract nurses in the management of disabilities and identified several areas for potential
     program improvement.

     A.     Implementation of the ENVP
             The ENVP pilot was not implemented in a manner fully consistent with the
             original design and intent of the program, particularly with respect to the referral
             by USPS Injury Compensation Units (ICUs) of all traumatic injury cases after the
             fourteenth consecutive day of disability. In this regard, only 28 percent of the
             eligible USPS employees participated in the program and the referrals were
             received an average of 31 days after the date of injury. A proportion of the
             eligible cases were delayed or not referred due to inadvertent administrative
             problems. However, our review also determined that ICU officials of the largest
             pilot site, without consulting with or informing OWCP program managers, had
             developed and applied judgmental criteria to select or withhold an indeterminate
             number of cases from participation in the pilot. While the biased selection criteria
             prevented a definitive measurement of the cost effectiveness of the program, we
             have included in this section a discussion of ENVP practices contributing to
             efficient service delivery as well as issues warranting consideration for their
             potential impacts on the efficacy of OWCP’s early nurse intervention program
             and future pilot projects.

             The referral rates and time frames were a topic of concern throughout the pilot
             and OWCP officials initiated actions in an effort to improve adherence to the
             pilot’s protocols. Boston ICU personnel, in particular, attributed the low referrals
             to frequent staff turnover and the resulting inability to keep ICU Specialists
             properly trained regarding the ENVP program. Delayed receipt of injury
             notifications from employees’ supervisors was also cited by the Boston ICU
             officials as a contributing factor in the late submission of ENVP referrals. In
             response to the USPS officials’ explanations and as a means to expand
             participation in the ENVP program, OWCP staff screened the regular mail
             deliveries to identify cases eligible for ENVP participation which had been
             overlooked by the ICU Specialists.

             The chart below illustrates the low referral rates and the delays in submission of
             ENVP eligible cases from USPS offices where the program was piloted.

                                    ENVP REFERRALS

                     Total Cases            ENVP              Percentage          Average days
                     Eligible for          Referrals           Referrals         from injury to
                       ENVP                                                      RN assignment

Stanford                  14                   1                   7%                  3
Hartford                 36                   4                   11%                 24.3
Boston                   181                  63                  35%                  30
Manchester                34                   8                  24%                  46
Portland                 14                   1                   7%                   15

Totals                   279                  77                  28%                 30.8
Despite evidence that the program was not fully implemented as designed with
respect to the extent and timeliness of referrals, we undertook a quasi-
experimental evaluation to determine the cost effectiveness of the pilot by
comparing ENVP participants to nonENVP participants with similar injuries,
occupations and demographic characteristics. Our evaluation design was premised
on the understanding that delayed referrals and qualifying cases not referred were
predominately the result of random oversight by employing agency personnel.
We, therefore, expected our evaluation design to provide a fair portrayal of the
comparative impact of the ENVP pilot on claimants whose disability extended
beyond 14 calendar days.

Our quantitative analysis of ENVP and non-ENVP cases did not identify
statistically significant differences in evaluated case performance criteria.
Measurable differences between the ENVP pilot participants and the control
group on evaluative criteria, such as the total length of disability, the time from
nurse assignment to return to work or the rate of injury recurrence, were limited
and statistical analysis using T-tests and regression analysis confirmed that the
differences were not statistically significant.

During a meeting with USPS-ICU personnel to discuss our preliminary data
analysis and their perspectives concerning the lack of positive, measurable ENVP
impacts, the Boston ICU officials disclosed for the first time that they had applied
judgmental criteria in referring cases for participation in the pilot. Specifically,
the Boston ICU officials had concluded that USPS would realize the maximum
benefits from the ENVP by referring for early nurse intervention only those cases
they expected to be more difficult and complex to manage, and had adopted
referral criteria which included:

•      confirmation of a lengthy disability prognosis by USPS Fitness for Duty
       examination;

•      injuries too severe to warrant a Fitness for Duty examination;

•      claimants whose attending physicians have reputations for supporting
       prolonged disability periods; and

•      claimants with a history of extended disability periods following prior
       injuries.

The Boston ICU officials also reconfirmed that the previously disclosed
administrative problems had accounted for other cases not referred or referred late
for ENVP participation, but could not identify or estimate the number of cases
withheld from participation by intent versus by oversight. Since the largest
number of ENVP pilot cases were referred by the Boston ICU and represented in
their assessment the most complex cases, the Boston ICU officials advised that
they would not have expected the program to demonstrate superior outcomes in
comparison with cases not referred to the ENVP. In view of the biasing effect of
the judgmental criteria applied by USPS, the results of our comparative analysis
cannot be considered to fairly represent measurable outcomes or impacts of the
ENVP and we are, therefore, not including the statistical data in this report.

Two factors in addition to the complexity of the ENVP cases were cited by the
Boston ICU officials as potential explanations for the similar outcome
measurements for the pilot and comparison groups. First, the USPS personnel
offered the opinion that the nurses’ assistance, when requested, in preparing
injury compensation forms and facilitating claim processing might have eased the
workers’ compensation program’s administrative burdens with the unintended
consequence of encouraging some claimants to extend their absences from work.
While the nurses addressed administrative inquiries, their primary responsibilities
entailed ensuring quality medical management with the goal of returning injured
workers at the earliest possible time to a safe work environment meeting any
injury related restrictions. Our in-depth case study of a limited number of ENVP
participants and non-ENVP claimants did not provide direct evidence that the
workers’ compensation program’s administrative requirements influenced the
lengths of disability and it is, therefore, our opinion that the potential impact of
this issue was not sufficient to affect our statistical analysis.

The second factor suggested by USPS officials as expediting the return to work of
the control group claimants was the shorter timeframe required to obtain medical
reports using USPS’ fitness for duty examinations rather than OWCP’s second
medical opinion process. A participant in the ENVP pilot would have been
referred for a second medical opinion if questions arose concerning the reports of
the claimant’s attending physician, while a non-EN VP claimant would generally
have been scheduled for a fitness for duty examination with a USPS contract
physician, especially during the early stages of disability. A discussion of these
procedures and the timeframes required is included under the Potential Program
Improvements section of this report.

Although the selective implementation of the pilot did not permit a conclusive
assessment of the ENVP, we noted a significant factor in this early nurse
intervention program’s design which would favorably influence its cost
effectiveness in comparison with a study of early nurse intervention in the
workers’ compensation cases of West Virginia coal miners.1 The West Virginia
Workers’ Compensation Fund piloted their initiative to provide early nurse
intervention to coal miners who experienced back injuries during the period July
1, 1986 through May 30, 1987 and published the results of a study of the pilot in
June 1988. The West Virginia study concluded that this pilot project was not cost
effective, noting the most probable immediate reason was that the intervention
was performed too early. However, in contrast to the Boston ENVP project which
was characterized by case specific evaluations of claimant needs and medical
management tailored to each participant’s circumstances, the West Virginia
program provided identical medical attention and services to all injured workers
     accepted into the program. Consequently, the evaluators of the West Virginia
     pilot concluded that the program’s services and costs were expended on some coal
     miners who would have returned to work within the same timeframes without the
     nurses’ intervention.

     In summary, the ENVP was designed with the intent of providing an efficient
     early nurse intervention program to achieve more timely and stable reemployment
     of injured workers, and with the expectation that the cost effectiveness of the pilot
     would be measurable through standard evaluation techniques to support objective
     and informed decisions for the program’s future. Although the modifications
     initiated by the Boston USPS office may have enhanced the pilot from the
     employing agency’s viewpoint, the introduction of subjective criteria for referring
     participants precluded any definitive measurement of the pilot’s impact. Future
     OWCP pilot projects which rely for success upon employing agency adherence to
     agreed upon procedures should include provisions for systematic on-site
     monitoring or evaluation of compliance with critical implementation guidance
     early in the course of the program. Such implementation reviews would facilitate
     the early identification of modifications adopted by the employing agency and, if
     modifications are positive, permit timely redesign of the pilot project. If an
     outcome or impact evaluation is planned, involving the evaluators during the
     design phase and incorporating a reference to the outcome or impact evaluation in
     the pilot project agreement, as in the case of the later Boston Very Early Nurse
     Visitation Program, may also encourage more consistent implementation of pilot
     procedures or earlier communication regarding potential adaptations under
     consideration by the employing agency.

B.   Stakeholders’ Assessments of ENVP

     Numerous and extensive interviews with all parties involved in the ENVP
     program indicated a high level of customer/stakeholder satisfaction and support of
     the ENVP program. As part of our review, we interviewed relevant parties
     associated with the ENVP program, including employing agency representatives,
     OWCP management staff and claims examiners, nurses, union officials, and
     claimants. While overall satisfaction with the ENVP program was prevalent, the
     parties interviewed varied in their reasons for supporting the ENVP program.

     ENVP claimants expressed their support for the program and were especially
     appreciative of the nurses’ assistance with OWCP’s and their employing agency’s
     injury and compensation related paperwork. One claimant praised the nurse and
     the program for help in ensuring that she had a safe return to work experience in a
     limited duty assignment that accommodated her medical restrictions.

     •      Our interviews with several contract nurses participating in the ENVP
            found support for the program’s reliance upon their professional training
            as nurses to fashion an appropriate case management approach and the
            flexibility to manage cases within the confines of their own schedules.
•      Union officials cited the appreciation of many of their members for the
       nurses’ assistance in completing OWCP paperwork and answering
       questions regarding compensation problems. However, the union officials
       expressed some concerns that the voluntary nature of the ENVP program
       was not sufficiently emphasized to injured workers.

•      OWCP claims examiners considered the ENVP to be very effective and
       advised that the pilot should be expanded. Many claims examiners
       commented that the actions of the nurses on ENVP cases provide welcome
       assistance in easing their workload. However, claims examiners also
       mentioned the need to set aside other management priorities in order to
       address ENVP case related issues within limited timeframes.

•      The employing agency officials we contacted fully supported the program
       in theory and in practice. Officials of both USPS and the VA expressed the
       opinion that the initial increase in their chargeback medical costs for the
       services of the contract nurses is more than offset by later savings through
       decreased total compensation and medical costs. In a letter of
       commendation regarding one nurse’s performance, a USPS management
       official stated, “[cost savings to the U.S. Postal Service resulting from the
       nurse’s intervention] could be clearly seen each accounting period on the
       charge back report from your office, and on the Postal Service’s Rehab
       Periodic Roll Report.” The employing agency officials advised that, even
       in cases where injured workers could be expected to return to work
       unassisted, the ENVP resulted in earlier and more stable returns to the
       workplace. In addition, both agencies referred to the positive impact of the
       nurse’s role and acceptance as an impartial third party who is more apt to
       gain the cooperation and confidence of injured workers, medical
       professionals, and agency supervisors.

While both the USPS and the VA had agreed to participate in the ENVP program,
the USPS’ actions as well as the type and level of participation set the tone for
how the program developed and evolved. USPS personnel acknowledged that,
while they are overwhelmingly supportive of the ENVP program, they
disregarded agreements with OWCP to refer all cases in which injured workers
have been out of work for 14 calendar days as a result of a traumatic injury.
Rather, they adopted a policy of selectively referring cases to the ENVP program.
In explanation, USPS officials advised that they have the means and capacity to
effectively manage and achieve successful returns to work for many of their
injured workers during the earliest stages of disability citing, in particular, their
ability to obtain quality fitness for duty examinations performed by Board
certified physicians under contract with USPS in a very timely manner. It was the
USPS officials’ opinion that the EN VP program is better suited for managing
more difficult cases which meet their criteria explained in detail earlier in the
report. It is important to recall that USPS managers who participated directly in
     the ENVP program from its inception expressed confidence in the program and
     enthusiastically supported the program’s continuation as an effective means of
     managing more difficult cases. Similarly, VA officials preferred to rely upon their
     agency’s medical personnel for the majority of cases, but considered the
     availability of the ENVP reassuring and beneficial.

C.   Potential Program Improvements

     Several opportunities for program improvements which could enhance both early
     nurse intervention projects and the overall Federal workers’ compensation
     program came to our attention during the course of this review. In this regard, a
     comparison with USPS’ fitness for duty examination process indicated the
     potential for reducing timeframes for OWCP’s second medical opinions. An
     accelerated second opinion process could expedite the return to work of claimants
     determined to have work capacity by approximately 28 days and increase the
     confidence of USPS officials in referring more routine cases to OWCP for early
     intervention. We also noted opportunities, consistent with OWCP National Office
     guidance, for more active involvement by the nurses in the management of the
     claimants’ medical care and improved targeting of nurse resources toward case
     intervention points of greatest potential impact.

     In order to gain a comprehensive understanding of early nurse intervention
     services and to more fully assess the performance of the ENVP, we conducted an
     in-depth case study of 16 individually matched cases from the main Boston
     General Mail Facility. This qualitative analysis compared nine cases managed
     under the ENVP program with seven cases of similar characteristics and
     circumstances which had not been referred for early nurse intervention. The focus
     of this phase of our evaluation was potential areas for program improvement,
     including the issue of the timeliness of second medical opinions cited by USPS
     officials.

     1.     Second Medical Opinion Timeframes

            A comparison of the timeframes from notifying an injured worker of an
            examination to receipt of medical reports for the cases in our study
            indicated that OWCP’s second medical opinions required approximately
            47 days while USPS’ fitness for duty examinations were completed in an
            average of 19 days. While we recognize that the purposes of these medical
            examinations are not identical, we analyzed the processes involved in
            detail to determine whether any USPS procedures could be adapted to
            expedite OWCP’s second medical opinions. We concluded that reducing
            the notification period to the claimant prior to the medical appointment
            and requesting the return by facsimile of a Work Restriction Evaluation
            which supports work potential could reduce the timeframes in such cases
            by an estimated 28 days.
Although OWCP’s second opinion and USPS’ fitness for duty
examinations are similar, certain key differences in the purposes of these
procedures contribute to the length of time required to obtain a second
medical opinion. Second opinion examinations are often used by OWCP
when an attending physician’s reports do not reflect anticipated progress
towards return to work, lack sufficient explanation of complications and/or
propose a treatment program inconsistent with general practices to
expedite recovery. According to USPS injury compensation officials,
fitness for duty examinations serve a more narrow purpose and are used
primarily to determine whether injured workers are capable of returning to
work at any level of performance. While both agencies provide
information concerning the claimant’s medical history to the physician
contracted to perform reviews, OWCP’s detailed questions relative to
medical condition and treatment frequently require a more comprehensive
medical report which contributes to the extended timeframe to complete
the second medical opinion process.

Our analysis of the differences between the USPS’ fitness for duty and
OWCP’s second opinion examinations focused on the preparatory
processes involved for the two types of examinations and on the time
required to obtain reports of the examinations. We found little deviation in
the procedures used by the agencies in initiating, scheduling, or advising
injured workers of their appointments with the contract physicians.
However, an appreciable difference was noted in the number of days
advance notification of the scheduled appointment provided by the
agencies. In our three sample cases where a fitness for duty examination
was conducted, USPS advised the claimant from 6 to 13 days prior to the
appointment, with an average notification period of 10 days. For the two
sampled cases subjected to second opinion examinations, the period
between OWCP’s issuance of a notification letter and the examination
averaged 19 days. While OWCP’s procedure manual states that a medical
examination should be scheduled no later than 60 days in the future, we
did not identify a required minimum number of days warning to an injured
worker. However, interviews with the responsible Boston OWCP staff
member indicated that she generally schedules medical appointments for
one month after the date she is informed of the need for an examination.

With respect to the processes and time periods entailed in obtaining the
results of medical examinations, we noted significant variations between
fitness for duty and second medical opinion examinations. In this regard,
medical reports for our three sampled cases with fitness for duty
examinations were received by USPS an average of nine days after the
date of the examination. In contrast, OWCP received the results of second
opinion evaluations in the sampled cases an average of 28 days following
the medical examinations. Furthermore, it is USPS’ policy to request that
the examining physician provide his/her report to the agency by facsimile
     (FAX) upon completion. USPS officials advised that examining
     physicians usually report results to them on the day of the examination,
     advising the agency of their work tolerance assessments. In instances of
     more lengthy medical status reports, USPS’ contract physicians have taken
     upwards of two weeks to submit a written report.

     We recognize that the more comprehensive medical reports generally
     required to address OWCP’s request for a second medical opinion can be
     expected to require a longer period to complete. However, the extended
     reporting period to OWCP can delay return to work for those claimants
     whose work capacity is confirmed by the second medical opinion, since
     information concerning both medical matters and work capacity are
     generally forwarded by the physician at the same time. OWCP officials
     advised that nurses accompany some claimants to second opinion
     examinations to immediately obtain and discuss the physician’s
     conclusions and the agency is gradually moving toward procuring
     “broker” or physician network services with explicit contractual
     arrangements and tight timeframes for providing second opinions. We
     concur with these approaches as well as the consideration of other
     procedures which would expedite the receipt of information concerning
     work capacity identified through a second medical opinion examination
     and permit an appropriate job offer to be developed and discussed with the
     claimant while the full medical report is pending.

2.   Medical Management by Nurses

     While our case study provided evidence that ENVP nurses effectively
     relied upon their medical training to counsel injured workers and to assist
     workers and employing agency officials in implementing appropriate light
     duty assignments, opportunities existed to increase the involvement of the
     nurses in the medical care provided to the claimants. In particular, direct
     contacts with physicians to discuss treatment plans and the employees’
     progress towards recovery and return to work were limited, according to
     information in the files we reviewed, although OWCP’ s guidance to all
     field nurses supports and encourages such active medical management to
     minimize disability periods.

     We conducted a thorough analysis of nurse activities in cases referred to
     the ENVP program to assess the nurses’ contributions towards attaining
     the goals of the ENVP program and to determine whether modifications to
     the nurses’ procedures could improve the effectiveness of the program.
     Our evaluation included, but was not limited to, assessing nurses’ actions
     to monitor medical treatment, to facilitate injured workers’ return to work,
     and to advance claimants in light or limited duty assignments to increasing
     levels of work tolerance. Our analysis also included a comparison of nurse
     interventions documented in the case records with guidance provided by
OWCP in the Training Resource Book for Contract Field Nurses, issued in
June 1994. Although this publication was printed subsequent to the
initiation of the ENVP pilot, OWCP officials advised that it represented a
compilation of guidance for nurse intervention previously issued in a
series of separate bulletins and was applicable to the ENVP.

The Training Resource Book for Contract Field Nurses provides
comprehensive guidance regarding OWCP’s expectations for nurses under
contract to the Federal workers’ compensation program. According to the
Resource Book, the goals of nurse intervention include, “...[working] with
the claimant, physician, employing agency, and the claims examiner to
ensure that the injured worker receives appropriate medical care, and to
facilitate the return to work.” Among the responsibilities discussed in the
Resource Book, nurses are expected to quickly initiate contact with the
injured worker, treating physician and employing agency personnel in face
to face meetings. Nurse intervention and actions immediately following
case assignment are described as particularly valuable and important in
establishing constructive relationships and rapport between the injured
worker, medical providers, employing agency and claims examiner. The
Resource Book also provides that nurses should obtain and review medical
treatment plans and discuss with the physician the projected length of an
employee’s disability to ensure that the expected time absent from work is
commensurate with the injured employee’s condition.

Our review of nurse activity reports concerning the ENVP participants in
our case study indicated that the nurses were less actively involved in the
medical management of these cases than contemplated by the Resource
Book. In particular, the case files, did not reflect the anticipated extent of
in person contacts with the physicians nor did we find copies of treatment
plans for ENVP participants. Furthermore, we did note instances where
more intensive medical management, including meetings with the
attending physician, may have expedited the return to work of ENVP
participants. For example, in the case of a USPS employee diagnosed with
a back strain who was disabled from work for a total of 157 days, the
nurse’s contacts with the physician were limited to written correspondence
requesting copies of medical records, including the claimant’s magnetic
resonance imaging (MRI) results, and the completion of Work Restriction
Evaluations (Form OWCP-5). The file reflected no direct contacts by the
field nurse either in person or by telephone with the attending physician,
despite questions raised by both the Regional Nurse and the Regional
Director since the MRI, obtained approximately one month after the
injury, did not appear to support prolonged total disability on the basis of
the workplace injury.

On the other hand, we found that nurses often used their medical training
effectively to counsel injured workers and to assist employees and
     employing agency officials in the successful implementation of light or
     limited duty assignments. Nurse participation was often essential to ensure
     the proper modification of job duties to fit the restrictions of claimants
     returning to work in a limited duty status. ENVP nurses accompanied
     claimants to return to work meetings where they explained the limited
     duty restrictions and expectations to both the claimants and employing
     agency supervisors, examined conditions at the employees’ work stations
     to ensure a safe environment for the returning claimants and discussed
     their role in assisting all parties with future problems during the course of
     the limited duty assignment. For example, in one case we reviewed, the
     injured worker reported a high level of stress and anxiety about returning
     to work and the nurse maintained frequent contact with the employee until
     he was well adjusted to the job situation. In another case, the nurse
     counseled a claimant on steps to alleviate the back fatigue he experienced
     upon return to limited duty and continued to follow the case until the
     injured worker had resumed all pre-injury duties on a full time schedule.

     OWCP officials concurred with our conclusion that more active medical
     management with emphasis on direct communication with physicians,
     consistent with the guidance presented in the Training Resource Book for
     Contract Field Nurses, could foster more timely and stable returns to
     work. Officials of the Boston OWCP Region advised that physician
     contacts and more extensive nurse involvement in medical management
     have increased since the completion of our fieldwork on the ENVP pilot,
     as the Region has gained additional experience in more effectively using
     the services of nurses in the workers’ compensation program.

3.   Targeting of Nurse Resources

     Full implementation of OWCP guidance issued subsequent to the
     completion of the ENVP pilot would facilitate improved targeting of nurse
     intervention to the points during the claimant’s recovery process when our
     case study indicated this service was of greatest benefit. OWCP guidance
     in effect during the ENVP to promote efficient use of nurse resources may
     have constricted the availability of nurses for rehabilitation assistance to
     some claimants requiring extended recovery periods prior to work.
     readiness. The results of our case study support the importance of OWCP
     Regions taking full advantage of the flexibility established in more recent
     guidance to suspend nurse services during prolonged recoveries in order to
     ensure critical assistance will be available both early in the disability
     period and during the rehabilitation phase.

     Nurses in the ENVP pilot were initially assigned to a case for 120 days in
     accordance with OWCP guidance in effect during the program, with the
     potential for a 60 day extension to monitor an injured worker’s return to
     work. More recently, OWCP has adopted policies to allow for a nurse’s
       assignment to be suspended under certain circumstances to maximize both
       the effective targeting and the efficient use of the nurse’s services. These
       policies are incorporated in FECA Bulletin No. 96-6, issued January 29,
       1996 and OWCP Bulletin No. 97-3, issued February 24, 1997.

       During the course of our review, we observed that the nurse’s initial 120
       day assignment period was sometimes not sufficient to target nurse
       services to the most critical intervention points in a case. Specifically,
       under OWCP’s guidelines, nurses play an essential role upon assignment
       to a case in coordinating initial activity and ensuring appropriate medical
       attention. Nurse intervention can also be vital in coordinating efforts
       related to an injured worker’s return to work and assisting with subsequent
       concerns arising from light or limited duty assignments. Significant time
       periods elapsed in some ENVP cases, such as those requiring surgery,
       between initial management actions and the claimant’s reentry into the
       workplace. Thus, the nurse’s ability to effectively intervene both early in
       the disability and through the rehabilitation period within the authorized
       120 to 180 calendar day timeframe was limited.

       The results of our case study, therefore, confirm OWCP’s decision to
       establish a nurse interrupt status, and new areas of employing agency
       emphasis since the completion of the ENVP increase the importance of a
       full implementation of this procedure. In particular, USPS officials are
       requesting more extensive assistance from OWCP in their efforts to
       progress as many light or limited duty employees as possible to their
       maximum work capacity, a role well suited to the nurses who have
       facilitated the claimants’ return to work. Although the Boston OWCP
       Region is actively responding to the USPS’ requests for this extended
       assistance, Regional officials have expressed some reluctance to fully
       utilize the recently authorized suspense status without further clarification
       of the circumstances for which it is appropriate. In our opinion, the interest
       by employing agencies in extending nurse intervention through the
       completion of light or limited duty assignments increases the need for
       Regional officials to fully implement OWCP procedures to ensure nurse
       resources are available for both early intervention and rehabilitation
       assistance.

Both early nurse intervention initiatives and the overall workers’ compensation
program could be improved by addressing the program issues which we identified
in the course of this evaluation. Decreasing the time required to obtain the results
of second medical opinions establishing work capacity would permit earlier
reemployment of the affected claimants, reduce related compensation costs and
encourage USPS officials to refer cases to OWCP for management more promptly
following workplace injuries. Ensuring that OWCP guidance regarding the active
involvement of nurses in the management of medical care and effective resource
targeting is consistently and fully implemented by Regional offices could further
               enhance the effectiveness of the field nurse intervention program.

VI.    CONCLUSIONS

Although we were not able to definitively measure the impact of the ENVP, continuing efforts
by OWCP to pilot and improve nurse intervention and management early in periods of disability
following a workplace injury are warranted, in our opinion, by the results of our evaluation and
other research on this subject. In this regard, the conclusion of the West Virginia Workers’
Compensation Fund’s Very Early Intervention Project report, while recommending the exercise
of caution in adopting early intervention policies, noted:

       “Early intervention in work-related disability has been widely accepted as the disability
       management strategy of choice by rehabilitation providers and has been endorsed by
       both professional organizations and national policy setting bodies... Our firm belief is
       that augmented disability management can contribute to controlling costs as well as
       increasing the abilities and the well being of workers, but continuous scrutiny of
       outcomes is imperative to maintain a balance between costs and benefits. "2

Our evaluation identified several non-quantifiable indicators of the positive outcomes of the
ENVP pilot. Most significantly, the Boston OWCP Region’s early nurse intervention initiatives
enjoy a high level of support among all key stakeholder groups. Officials of the Boston USPS
facility, in particular, emphasized the benefits of referring complex cases for OWCP
management in an expedited manner and requested that their procedural modifications which
prevented measuring the pilot’s impact not result in a recommendation to terminate early nurse
intervention. In fact, the absence of statistically significant differences in performance measures,
such as return to work timeframes and injury recurrence rates, between the most complex or
problematic cases referred for ENVP participation and a randomly selected group of non-ENVP
cases may be indicative of the benefits of early nurse intervention in addressing particularly
difficult workers’ compensation cases. While the implemented program differed significantly
from the planned pilot, OWCP and USPS may have achieved an approach which integrates
effective methods available at the local level to both agencies for the early management of work
related disability. We would, therefore, encourage OWCP to continue to experiment with and
evaluate early intervention approaches. Addressing the opportunities for program improvement
noted during our evaluation, including reducing the timeframes required to obtain second
medical opinions and ensuring active medical management and resource targeting, could further
increase the confidence of employing agencies in relying upon OWCP for earlier management of
workers’ compensation cases.

VII.   RECOMMENDATIONS

We recommend that the Director, Office of Workers’ Compensation Programs:

       1.      Ensure that future pilot projects which involve employing agencies include
               provisions for systematic on-site monitoring or evaluation of compliance with
               critical implementation guidance early in the course of the program.
ESA Response

“This is clearly the preferred approach, and one which the OWCP National Office, when
designing such pilots, makes a strong effort to fulfill. We have learned from repeated
experience that it is difficult to enforce experimental protocols carried out by production
units, such as OWCP district offices and Federal agency injury compensation units, and
difficult to maintain the level of oversight needed to guarantee that the experimental
design is carried out. Nevertheless, the OIG experience in evaluating this locally-
designed pilot is a useful cautionary tale, reminding us of the need to “trust but verify”

In the case of early intervention, however, we think that agencies cannot be relied on to
refer all cases according to an agreed-upon timetable, for various reasons. Although the
OIG thinks that the United States Postal Service used its available tools to good effect,
we think that an early intervention selection process which is driven by agency decisions
is not in keeping with OWCP’s role. OWCP is encouraging agencies to submit all claims
within the regulatory time requirements, which would permit early intervention wherever
warranted by the medical facts of the case.”

OIG’s Conclusion

We concur with OWCP’s efforts to encourage employing agencies to submit claim forms
in accordance with regulatory requirements and appreciate the difficulties involved in
securing consistent adherence by employing agencies to either regulatory or agreed-upon
timetables for case referrals. We have, therefore, resolved and closed this
recommendation. However, in view of the positive findings of our study, we would
advocate that OWCP continue to pilot early nurse intervention initiatives with interested
employing agencies since a significant number of cases may benefit from OWCP
management prior to the regulatory time requirements. We also encourage OWCP to
continue to work with all employing agencies to expedite case referrals in order to extend
the advantages of early nurse intervention to increasing numbers of injured employees
and their employers.

2.     Revise agency procedures to expedite the second medical opinion process and the
       receipt of resulting work capacity information, in order to improve the timeliness
       of returns to work for applicable claimants. In particular:

       a.      Provide instructions which reduce the timeframes for scheduling second
               medical opinion examinations and notifying the claimants of the
               appointments.

       b.      Instruct District Offices to develop and implement appropriate procedures,
               based upon local circumstances, to accelerate the receipt of work capacity
               information and development of job offers. Options which could be
               considered include:

               •      provisions in “broker” or physician network service contracts
                      requiring prompt notification to OWCP of identified work
                      capacity;

               •      nurses accompanying claimants to second medical opinion
                      examinations and discussing the results, including work capacity
                      and restrictions, with the physician;

               •      telephone contacts by nurses with the physician on the day of a
                      second medical examination to determine whether work capacity
                      was identified and, if so, applicable restrictions; and

               •      requesting contract physicians to FAX to the District Office a
                      Work Restriction Evaluation (Form OWCP-5) immediately
                      following a second opinion examination for any claimant with
                      identified work capacity.

ESA Response

The timeliness of second opinion evaluations is of considerable concern to us, since it
impacts not only returns to work but also the timeliness of decisions rendered to injured
workers. There are several problems which make finding a solution complicated. First,
the second opinion specialists we use are under informal agreements rather than binding
contracts as with the Postal Service. This increases the number and quality of specialists
available to us, but decreases the degree of control over compliance.

Employee unions are very sensitive to the degree of oversight OWCP exercises in second
opinion examinations, and have frequently questioned the appearance of using employer-
oriented physicians over and over, or of seeming to influence the outcome by having the
nurse present at the physician ‘s office. Although the second opinion evaluation is not
subject to all the constraints of a referee opinion, we must avoid any appearance of
undue influence.

Two FECA district offices have procured the services of medical brokers who contract to
arrange medical evaluations with appropriate specialists within a specific timeframe and
provide timely opinions which meet our specifications. Two more district offices have
begun the contracting process, and we expect more to do so. Under these contracts, the
broker must arrange the appointment within a certain timeframe and have an adequate
report within an additional time period. These contracts are enforceable and have
shortened the time needed to complete an evaluation (as well as reduced the cost) to
approximately 35 days. Since OWCP must fulfill certain due process requirements, and
does not wish to contract directly with physicians, we may never reach the level of
timeliness enjoyed by the Postal Service but we believe we can improve significantly by
using alternatives discussed above.

We do not believe that physicians will be willing to forward the Work Restriction
Evaluation (Form OWCP-5) separately without the full narrative report of the medical
examination, and in fact it should be viewed in context and not independently.”

OIG's Conclusion

OWCP’s initiative to reduce the time required to obtain a second medical opinion to 35
days through contracting with medical brokers is commendable. However, continuing
attention should be directed towards identifying expedited approaches to verify work
capacity both for district offices contracting with brokers and those presently relying
upon informal agreements for second opinions. While OWCP’s response cites legitimate
concerns with some of the options we posed for consideration, we remain confident that
appropriate alternatives exist which would permit OWCP to obtain sufficient medical
information prior to the receipt of the full narrative examination report to more timely
initiate the development of light duty jobs for work ready claimants. For example,
consistent with OWCP’s increasing emphasis upon direct communications with
physicians, field nurses could contact the physician immediately following the second
opinion examination to determine whether work capacity was identified and, if so,
discuss all medical factors relevant to promptly and safely returning the claimant to the
workplace. We would, therefore, appreciate a reassessment of this issue by OWCP with
the expectation that suitable alternatives for expediting work capacity information can be
identified and we have suspended resolution of this recommendation pending your
further response.

3.     Ensure that nurses actively participate in the medical management of injured
       workers’ cases, including meeting with attending physicians and reviewing
       treatment plans, as provided in the Training Resource Book for Contract Field
       Nurses.

ESA Response

“We have recently recertified field nurses in workshops all over the country, and have
stressed to them the level of active intervention in case management that is the heart of
Quality Case Management. Staff nurses have been provided with evaluation criteria and
are instructed to base their option year decisions on such qualitative criteria. We expect
them to meet with attending physicians and to review treatment plans in the majority of
cases. We review district office practices in this area biannually in the accountability
review process, and nurse activities are evaluate4 locally by management in the off
years.”

OIG’s Conclusion

We concur with the actions taken by OWCP to assure that field nurses actively
participate in the medical management of injured workers’ cases. Accordingly, we
consider this recommendation resolved and closed.

4.     Ensure that OWCP guidance providing for a nurse interrupt status is fully
       implemented by District Offices in order to effectively target nurse resources to
       intervention points of greatest impact.

ESA Response

“OWCP Bulletin 97-3 has been issued implementing additional codes needed to interrupt
nurse case management, with accompanying revisions to the Nurse Rehabilitation
Tracking System and Federal Employees’ Compensation System.”

OIG’s Conclusion

We concur with the actions taken by OWCP and have resolved and closed the
recommendation in this section.
                                                                                         Appendix

U.S. Department of Labor              Employment Standards Administration
                                      Washington, D.C. 20210
                                      Reply to the Attention of
May 9, 1997


MEMORANDUM FOR                VERONICA CAMPBELL
                              Director, Office of
                              Evaluations and Inspections OIG

FROM:                         DONNA G. COPSON
                              Director, Office of Management,
                              Administration and Planning

SUBJECT:                      Evaluation of Early Nurse Visitation Program
                              Boston Regional Office, OWCP
                              Draft Report No. 1O-OEI-97-OWCP

This is in response to your March 31, 1997 memorandum requesting comments on the subject
report.

We have reviewed the report and are pleased that the report supports the Office of Workers’
Compensation Programs’ efforts at early intervention in disability at least from a public relations
standpoint, although we naturally share the disappointment that the Postal Service’s
implementation of the agreement prevented a real quantitative analysis of cost-effectiveness. Our
response to the specific recommendations is attached. Should you have any questions, please
contact Rose Broadwater of my staff at 219-5714 or Diane Svenonius of OWCP at 219-7491.

Attachment
                                                                                         Appendix

           EMPLOYMENT STANDARDS ADMINISTRATION COMMENTS on
          OIG DRAFT AUDIT REPORT NO. l0-OEI-97-OWCP: EVALUATION OF
                   THE EARLY NURSE VISITATION PROGRAM

Recommendation 1. “Ensure that future pilot projects which involve employing agencies
include provisions for systematic on-site monitoring or evaluation of compliance with
critical implementation guidance early in the course of the program.”

Response: This is clearly the preferred approach, and one which the OWCP National Office,
when designing such pilots, makes a strong effort to fulfill. We have learned from repeated
experience that it is difficult to enforce experimental protocols carried out by production units,
such as OWCP district offices and Federal agency injury compensation units, and difficult to
maintain the level of oversight needed to guarantee that the experimental design is carried out.
Nevertheless, the OIG experience in evaluating this locally-designed pilot is a useful cautionary
tale, reminding us of the need to “trust but verify”.

In the case of early intervention, however, we think that agencies cannot be relied on to refer all
cases according to an agreed-upon timetable, for various reasons. Although the OIG thinks that
the United States Postal Service used its available tools to good effect, we think that an early
intervention selection process which is driven by agency decisions is not in keeping with
OWCP’s role. OWCP is encouraging agencies to submit all claims within the regulatory time
requirements, which would permit early intervention wherever warranted by the medical facts of
the case.

Recommendation 2. Revise agency procedures to expedite the second medical opinion
process and the receipt of resulting work capacity information in order to improve the
timeliness of returns to work for applicable claimants (several alternative
recommendations for improvement follow).

Response: The timeliness of second opinion evaluations is of considerable concern to us, since it
impacts not only returns to work but also the timeliness of decisions rendered to injured workers.
There are several problems which make finding a solution complicated. First, the second opinion
specialists we use are under informal agreements rather than binding contracts as with the Postal
Service. This increases the number and quality of specialists available to us, but decreases the
degree of control over compliance.

Employee unions are very sensitive to the degree of oversight OWCP exercises in second
opinion examinations, and have frequently questioned the appearance of using employer-
oriented physicians over and over, or of seeming to influence the outcome by having the nurse
present at the physician’s office. Although the second opinion evaluation is not subject to all the
constraints of a referee opinion, because it can constitute the weight of medical opinion, we must
avoid any appearance of undue influence.

Two FECA district offices have procured the services of medical brokers who contract to arrange
medical evaluations with appropriate specialists within a specific timeframe and provide timely
opinions which meet our specifications. Two more district offices have begun the contracting
process, and we expect more to do so. Under these contracts, the broker must arrange the
appointment within a certain time-frame and have an adequate report within an additional time
period. These contracts are enforceable and have shortened the time needed to complete an
evaluation (as well as reduced the cost) to approximately 35 days. Since OWCP must fulfill
certain due process requirements, and does not wish to contract directly with physicians, we may
never reach the level of timeliness enjoyed by the Postal Service but we believe we can improve
significantly by using alternatives discussed above.

We do not believe that physicians will be willing to forward the Work Restriction Evaluation
(Form OWCP-5) separately without the full narrative report of the medical examination, and in
fact it should be viewed in context and not independently.

Recommendation 3. Ensure that nurses actively participate in the medical management of
injured workers’ cases, including meeting with attending physicians and reviewing
treatment plans, as provided in the Training Resource Book for Contract Field Nurses.

Response: We have recently recertified field nurses in workshops all over the country, and have
stressed to them the level of active intervention in case management that is the heart of Quality
Case Management. Staff nurses have been provided with evaluation criteria and are instructed to
base their option year decisions on such qualitative criteria. We expect them to meet with
attending physicians and to review treatment plans in the majority of cases. We review district
office practices in this area biannually in the accountability review process, and nurse activities
are evaluated locally by management in the off years.

Recommendation 4. Ensure that OWCP guidance providing for a nurse interrupt status is
fully implemented by District Offices in order to effectively target nurse resources to
intervention points of greatest impact.

Response: OWCP Bulletin 97-3 has been issued implementing additional codes needed to
interrupt nurse case management, with accompanying revisions to the Nurse Rehabilitation
Tracking System and Federal Employees’ Compensation System.
Employing agency officials is critical. Our Office of Evaluations and Inspections staff would be
pleased to consult with your agency during the design phase of future pilot projects to assist in
developing pilot procedures.

Please do not hesitate to address any questions concerning this report to Veronica Campbell,
Director, Office of Evaluations and Inspections at 219-8446, ext. 143.

cc: J. Griffin Crump
____________________
        1
      State of West Virginia, Worker’s Compensation Fund, Very Early Intervention Project
Management Report II, June 1988.
        2
      State of West Virginia, Worker’s Compensation Fund, Very Early Intervention Project
Management Report II, June 1988. Pg. 18-19.
